GR-50-98-004
Department of Justice
 
Audit Report
 
Community Oriented Policing Services
Grants to the Housing Authority of the Sac and Fox Tribe of Missouri
Grant Number 95MWX0096
Report No. GR-50-98-004
December 29, 1997
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Housing Authority of the Sac & Fox Tribe of Missouri (Housing
Authority). The $2,824 grant was to pay overtime for a police officer under the Making
Officer Redeployment Effective (MORE) program. The purpose was to enhance community
policing efforts.
Our audit determined that:




- The Housing Authority had not requested reimbursement for any overtime costs to the
        grant at the time our audit. However, there was a $939 invoice pending payment for
        overtime of which only $58 met the grant condition.








- The Progress Report and Annual Department Report were not submitted to COPS nor were
        current copies of the quarterly Financial Status Reports filed with the Office of Justice
        Programs (OJP). 




 
#####